Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




CMS AND ITS CONTRACTORS HAVE
ADOPTED FEW PROGRAM INTEGRITY
    PRACTICES TO ADDRESS
   VULNERABILITIES IN EHRS




                    Daniel R. Levinson
                     Inspector General

                      January 2014
                     OEI-01-11-00571
EXECUTIVE SUMMARY: CMS AND ITS CONTRACTORS HAVE ADOPTED
FEW PROGRAM INTEGRITY PRACTICES TO ADDRESS VULNERABILITIES
IN EHRS
OEI-01-11-00571

WHY WE DID THIS STUDY
Electronic health records (EHRs) replace traditional paper medical records with
computerized recordkeeping to document and store patient health information. Experts in
health information technology caution that EHR technology can make it easier to commit
fraud. For example, certain EHR technology features may be used to mask true
authorship of the medical record and distort information to inflate health care claims.
The transition from paper records to EHRs may present new vulnerabilities and require
the Centers for Medicare & Medicaid Services (CMS) and its contractors to adjust their
techniques for identifying improper payments and investigating fraud.

HOW WE DID THIS STUDY
We sent an online questionnaire to CMS administrative and program integrity contractors
that use EHRs to pay claims, identify improper Medicare payments, and investigate
fraud. We also reviewed guidance documents and policies on EHRs and fraud
vulnerabilities that CMS and its contractors released for health care providers. Lastly, we
reviewed documents on EHRs and Medicare claims that CMS provided to its contractors.

WHAT WE FOUND
CMS and its contractors had adopted few program integrity practices specific to EHRs.
Specifically, few contractors were reviewing EHRs differently from paper medical
records. In addition, not all contractors reported being able to determine whether a
provider had copied language or overdocumented in a medical record. Finally, CMS had
provided limited guidance to Medicare contractors on EHR fraud vulnerabilities.

WHAT WE RECOMMEND
Although EHR technology may make it easier to perpetrate fraud, CMS and its
contractors have not adjusted their practices for identifying and investigating fraud in
EHRs. Our report made two recommendations. First, CMS should provide guidance to
its contractors on detecting fraud associated with EHRs. CMS could work with
contractors to identify best practices and develop guidance and tools for detecting fraud
associated with EHRs. Second, CMS should direct its contractors to use providers’ audit
logs. Audit log data distinguish EHRs from paper medical records and could be valuable
to CMS’s contractors when reviewing medical records. CMS concurred with our first
recommendation and partially concurred with our second recommendation.
TABLE OF CONTENTS

Objective ......................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................4 

Findings........................................................................................................6 

           CMS and its contractors had adopted few program integrity 

           practices specific to EHRs ...............................................................6 

           CMS had provided limited guidance to its contractors on fraud 

           vulnerabilities in EHRs ....................................................................8 

Conclusion and Recommendations ..............................................................9 


     Agency comments and Office of Inspector General response .............10 



Appendix....................................................................................................11

     A: Agency Comments .........................................................................11

Acknowledgments......................................................................................13 

                   OBJECTIVE
                   To describe how the Centers for Medicare & Medicaid Services (CMS)
                   and its contractors implemented program integrity practices in light of
                   electronic health records (EHRs) adoption.

                   BACKGROUND
                   Electronic Health Records
                   EHRs replace traditional paper medical records with computerized
                   recordkeeping to document and store patient health information. EHRs
                   may include patient demographics, progress notes, medications, medical
                   history, and clinical test results from any health care encounter.1
                   EHRs may create new vulnerabilities, requiring CMS and its contractors
                   to revise their approaches to protect against fraud and abuse. For example,
                   clues within the progress notes, handwriting styles, and other attributes
                   that help corroborate the authenticity of paper medical records are largely
                   absent in EHRs. Further, tracing authorship and documentation in an EHR
                   may not be as straightforward as tracing in a paper record. Health care
                   providers can use EHR software features that may mask true authorship of
                   the medical record and distort information in the record to inflate health
                   care claims.
                   CMS and Fraud Detection With EHRs
                   CMS uses administrative and program integrity contractors to pay claims,
                   identify improper Medicare payments, and investigate fraud. These
                   contractors include Medicare Administrative Contractors (MACs), Zone
                   Program Integrity Contractors (ZPICs), and Recovery Audit Contractors
                   (RACs).
                   MACs. MACs are responsible primarily for processing and paying
                   Medicare claims.2 MACs collaborate with CMS and other contractors to
                   ensure that they pay claims correctly. MACs also educate providers on
                   appropriate billing methods and are responsible for detecting and deterring
                   fraud.
                   ZPICs. ZPICs are responsible primarily for detecting and deterring
                   Medicare fraud.3 ZPICs investigate providers that have filed potentially
                   fraudulent claims by a variety of methods, including prepayment and

                   1
                     CMS, Electronic Health Records Overview. Accessed at http://www.cms.gov on Jan.
                   11, 2011.

                   2
                     CMS, Part A and Part B Medicare Administrative Contractor Statement of Work,

                   Attachment H-1, Master, § C.4.4.a, September 2011.

                   3
                     CMS, ZPIC IDIQ Umbrella Statement of Work, § 1.1.4, May 2009; CMS, Medicare
                   Program Integrity Manual, Pub. No. 100-08, ch. 4, § 4.2.2.

CMS and Its Contractors Have Adopted Few Practices To Address Vulnerabilities in EHRs (OEI-01-11-00571)   1
                   postpayment reviews and onsite audits. They may also recommend that
                   CMS or MACs revoke the billing privileges of providers.
                   RACs. RACs are responsible primarily for identifying and reducing
                   Medicare improper payments by detecting and recouping improper
                   payments made on claims of Medicare services.4
                   MACs, ZPICs, and RACs rely on medical records in aspects of their
                   program integrity work. The transition from paper records to EHRs may
                   require these contractors to adjust their techniques for identifying
                   improper payments and investigating fraud.
                   Ways EHRs May Facilitate Fraud
                   The full extent of health care fraud is unknown but it is substantial. The
                   cost of health care fraud is between $75 billion and $250 billion. These
                   figures are based on CMS estimates of total health care expenditures in
                   2009.5 Experts in health information technology caution that EHR
                   technology can make it easier to commit fraud.6 Certain EHR
                   documentation features, if poorly designed or used inappropriately, can
                   result in poor data quality or fraud. Below we describe two examples of
                   EHR documentation practices that could be used to commit fraud.
                   Copy-Pasting. Copy-pasting, also known as cloning, enables users to
                   select information from one source and replicate it in another location.7
                   When doctors, nurses, or other clinicians copy-paste information but fail
                   to update it or ensure accuracy, inaccurate information may enter the
                   patient’s medical record and inappropriate charges may be billed to
                   patients and third-party health care payers. Furthermore, inappropriate
                   copy-pasting could facilitate attempts to inflate claims and duplicate or
                   create fraudulent claims.
                   Overdocumentation. Overdocumentation is the practice of inserting false
                   or irrelevant documentation to create the appearance of support for billing
                   higher level services. Some EHR technologies auto-populate fields when
                   using templates built into the system. Other systems generate extensive
                   documentation on the basis of a single click of a checkbox, which if not
                   appropriately edited by the provider may be inaccurate. Such features can


                   4
                     CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch.1, § 1.3.1
                   5
                     CMS, National Health Expenditure Data. Accessed at http://www.cms.gov on Jan. 3,

                   2012. 

                   6
                     Dougherty, Michelle. HIT Policy Committee Hearing on Clinical Documentation, 

                   February 13, 2013. Accessed at http://www.healthit.gov on March 19, 2013. 

                   7
                     Association of American Medical Colleges, Compliance Officers’ Forum. Appropriate 

                   Documentation in an EHR: Use of Information That Is Not Generated During the 

                   Encounter for Which the Claim Is Submitted: Copying/Importing/Scripts/Templates. July 

                   11, 2001.


CMS and Its Contractors Have Adopted Few Practices To Address Vulnerabilities in EHRs (OEI-01-11-00571)   2
                   produce information suggesting the practitioner performed more
                   comprehensive services than were actually rendered.8
                   Ways EHRs May Safeguard Against Fraud
                   Usage policies and technology features, if used consistently, could help
                   prevent EHR fraud. However, providers that use EHR technology can
                   often disable or bypass these features, making them ineffective. The
                   Office of the National Coordinator for Health Information Technology
                   (ONC), the office that coordinates the adoption, implementation, and
                   exchange of EHRs, contracted with RTI International to develop
                   recommended requirements for enhancing data quality in EHRs. Included
                   in those recommendations are audit logs; access controls, including
                   passwords; and export controls that restrict transferring information. The
                   RTI recommendations highlight the importance of audit logs in fraud
                   detection in that one-third of the individual criteria focus on the functions
                   and features of audit logs.
                   Audit logs track changes within a record chronologically by capturing data
                   elements, such as date, time, and user stamps, for each update to an EHR.
                   An audit log can be used to analyze historical patterns that can identify
                   data inconsistencies. To provide the most benefit in fraud protection, audit
                   logs should always be operational, be stored as long as clinical records,
                   and never be altered.
                   Health Information Technology for Economic and Clinical
                   Health Act
                   The Health Information Technology for Economic and Clinical Health Act
                   was enacted as part of the American Recovery and Reinvestment Act of
                   2009 (ARRA), to support the development of a nationwide health
                   information technology infrastructure that allows for the electronic use
                   and exchange of information.9 Its goal is to achieve widespread adoption
                   of EHRs by 2014.
                   To encourage EHR adoption, ARRA established the Medicare and
                   Medicaid EHR incentive programs.10 CMS will pay over $22.5 billion in
                   incentive payments to eligible professionals and hospitals that demonstrate
                   meaningful use of certified EHR technology. Medicare professionals and
                   hospitals will face payment adjustments under Medicare starting in 2015




                   8
                     Dougherty, Michelle. HIT Policy Committee Hearing on Clinical Documentation, 

                   February 13, 2013. Accessed at http://www.healthit.gov on March 19, 2013. 

                   9
                     P.L. 111-5, Title XIII.

                   10
                      ARRA, Title IV, Pub L. 111-5.


CMS and Its Contractors Have Adopted Few Practices To Address Vulnerabilities in EHRs (OEI-01-11-00571)   3
                   for failing to successfully demonstrate meaningful use of certified EHR
                   technology.11
                   Related Office of Inspector General Work
                   The Office of Inspector General (OIG) released a companion report to this
                   review that assessed the extent to which hospitals that have received EHR
                   incentive payments implemented recommended fraud safeguards for EHR
                   technology.12
                   In 2012, OIG released a report on physicians’ reported use of EHR
                   technology that found that 57 percent of Medicare physicians used an
                   EHR at their primary practice locations in 2011. Additionally, three of
                   every four Medicare physicians with an EHR system used a certified
                   system to document evaluation and management services. 13 OIG is
                   currently determining the extent to which documentation errors were
                   facilitated by using EHR technology.14
                   In 2012, OIG released a study that found that CMS faces obstacles to
                   overseeing the Medicare EHR incentive program that leave the program
                   vulnerable to paying incentives to professionals and hospitals that do not
                   fully meet the meaningful use requirements.15
                   In 2011, OIG released an audit of information technology (IT) controls in
                   health IT standards. OIG found that ONC EHR certification criteria
                   focused on IT security application controls for communication between
                   EHR systems, but did not include basic, general IT security controls.16

                   METHODOLOGY
                   SCOPE
                   This study determined the extent to which the CMS administrative and
                   program integrity contractors have adjusted program integrity efforts in
                   light of EHR adoption.



                   11
                      See §§ 1848(a)(7), 1853(l)(4), and 1886 (b)(3)(B), as enacted in ARRA. See also
                   CMS, CMS Finalizes Requirements for the Medicare EHR Incentive Program. Accessed
                   at http://www.cms.gov on Jan. 3, 2012.
                   12
                      OIG, Not All Recommended Safeguards Have Been Implemented in Hospital EHR
                   Technology, OEI-01-11-00570, December 2013. 

                   13
                      OIG, Use of Electronic Health Record Systems in 2011 Among Medicare Physicians

                   Providing Evaluation and Management Services, OEI-04-10-00184, June 2012. 

                   14
                      OIG, OEI-04-10-00182, in progress.
                   15
                      OIG, Early Assessment Finds That CMS Faces Obstacles in Overseeing the Medicare
                   EHR Incentive Program, OEI-05-11-00250, November 2012.
                   16
                      OIG, Audit of Information Technology Security Included in Health Information
                   Technology Standards, A-18-09-30160, May 2011.

CMS and Its Contractors Have Adopted Few Practices To Address Vulnerabilities in EHRs (OEI-01-11-00571)   4
                   Data Sources
                   CMS Contractor Questionnaires: We administered online questionnaires
                   in January 2013 to three types of CMS administrative and program
                   integrity contractors that use EHRs to pay claims, identify improper
                   Medicare payments, and investigate fraud. We sent questionnaires to eight
                   MACs, six ZPICs, and four RACs.17 The questionnaires asked about their
                   policies, procedures, and experiences with EHR fraud and Medicare
                   claims. We asked about any procedures or review practices specific to
                   EHRs. We had a 100-percent response rate.
                   Document Review: We reviewed guidance documents and policies on
                   EHRs and fraud vulnerabilities that CMS and its contractors released for
                   health care providers. We also reviewed CMS transmittals of new or
                   changed policies and procedures relating to EHRs.
                   Limitations
                   Our analysis used self-reported data from CMS contractors. We did not
                   independently verify their statements.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




                   17
                     Given that some of the contractors were transitioning both in and out of service, we
                   consulted with CMS about which contractors we should contact for our study; therefore,
                   the number of contractors that we contacted does not match the number currently
                   operating.

CMS and Its Contractors Have Adopted Few Practices To Address Vulnerabilities in EHRs (OEI-01-11-00571)   5
                   FINDINGS
                   CMS and its contractors had adopted few program
                   integrity practices specific to EHRs
                   Although EHR technology may make it easier to perpetrate fraud, CMS
                   and its contractors have not adjusted their practices for identifying and
                   investigating fraud in EHRs.

                   Few contractors were reviewing EHRs differently from paper
                   medical records
                   Although additional reviews are not required by CMS, two MACs and two
                   ZPICs reported that they conduct them for EHRs beyond what they do for
                   paper medical records. For example, the MACs reported that they confirm
                   electronic signatures and request the providers’ EHR protocols. The
                   ZPICs reported that they request information about the providers’ EHR
                   technology and question the providers about their ability to access and
                   alter the EHR data. (See Table 1.)

                   Table 1: Number of CMS Contractors That Reported Conducting Additional
                   Review Procedures
                                                 Conduct Additional
                         Contractor                                          Use Audit Log data
                                                      Review
                         MAC                                   2 out of 8                 1 out of 8

                         RAC                                   0 out of 4                 1 out of 4

                         ZPIC                                  2 out of 6                 1 out of 6

                                                                                          .
                      Source: OIG analysis of contractors’ responses to questionnaire, 2013




                   Audit log data are unique to EHRs. They distinguish EHRs from paper
                   records and could be valuable in authenticating the medical record that
                   supports a claim. However, only 3 of the 18 Medicare contractors
                   reported using audit log data as part of their reviews or investigative
                   processes. For example, one contractor reported that it had used the audit
                   log to verify that the provider had not changed the medical record after the
                   date of care. Another contractor reviewed the audit log to validate
                   authenticity of entries made in the medical record.




CMS and Its Contractors Have Adopted Few Practices To Address Vulnerabilities in EHRs (OEI-01-11-00571)   6
                   Not all contractors reported being able to determine whether a
                   provider had copied language or overdocumented in a medical
                   record
                   MACs, ZPICs, and RACs reported varying ability to identify copied
                   language and overdocumentation in both EHRs and paper medical
                   records; however, ZPICs most often reported being able to identify such
                   instances. (See Table 2.) Generally, more contractors reported being able
                   to identify overdocumentation compared to copied language.
                   Overdocumentation may be easier to identify because it is evident within
                   the supporting medical record for a single claim. Contractors are unlikely
                   to identify copied language in a single claim because it may require a
                   single reviewer to examine multiple claims from a single patient or
                   provider for evidence of copied language. ZPICs may be more successful
                   at identifying potentially inappropriate practices because their primary
                   objective is to target fraud and they are more likely to look at multiple
                   claims as compared to other contractors. In addition, the other contractors
                   refer instances of suspected fraud to ZPICs.
                   Opportunities for a provider to inappropriately copy-paste language and
                   overdocument in a medical record for higher payment exist in paper
                   medical records as well as EHRs. However, features in EHR technology
                   make it easier for providers to copy-paste and overdocument in EHRs.

         Table 2: Number of CMS Contractors That Reported Being Able To Identify Copied
         Language and Overdocumentation

                                       Copied Language                              Overdocumentation

           Type of                                  Paper Medical                               Paper Medical
                                   EHR                                           EHR
           Contractor                                  Record                                      Record
           MAC                      4 out of 8              4 out of 8             6 out of 8         5 out of 8

           ZPIC                     3 out of 6              6 out of 6             6 out of 6         6 out of 6

           RAC                      2 out of 4              1 out of 4             3 out of 4         3 out of 4

                                                                                       .
                   Source: OIG analysis of contractors’ responses to questionnaire, 2013

                   Among those contractors that could identify copied language and
                   overdocumentation, not all reported taking followup actions after
                   identifying these practices in both EHRs and paper medical records.
                   Although all six ZPICs reported taking action after identifying copied
                   language and overdocumentation, not all MACs and RACs did. Four
                   MACs reported they referred the claims to the ZPICs; educated providers
                   about proper documentation; and took administrative action, such as
                   denial of payment. The two RACs that reported taking action sought
                   further direction from CMS. About half of the ZPICs took administrative


CMS and Its Contractors Have Adopted Few Practices To Address Vulnerabilities in EHRs (OEI-01-11-00571)            7
                    action, such as overpayment adjustments, referrals to law enforcement, or
                    referrals to CMS for payment suspension. The other ZPICs conducted
                    additional interviews, additional physician reviews, or site visits.

                    CMS had provided limited guidance to its contractors
                    on fraud vulnerabilities in EHRs
                    Contractors reported receiving limited guidance from CMS in the past
                    2 years about fraud vulnerabilities, such as copied language,
                    overdocumentation, and electronic signatures. (See Table 3.) Although
                    MACs and RACs received guidance, ZPICs unanimously responded that
                    CMS did not provide them with any. CMS did issue guidance to the
                    contractors that states that “medical record keeping within an EHR
                    deserves special considerations” and that “the original content, the
                    modified content, and the date and authorship” must be identifiable.
                    However, this guidance provides few details, and contractors described to
                    OIG areas related to EHRs that require additional guidance.18 Contractors
                    noted proxy and electronic signatures (three MACs), EHR documentation
                    (four MACs), and CMS’s Electronic Submission of Medical
                    Documentation Program (two ZPICs) as areas related to EHRs that they
                    believe require additional CMS guidance.


         Table 3: Number of Contractors That Reported Receiving Guidance From CMS
         Related to EHRs

         CMS Guidance                                   MAC                           RAC          ZPIC


         Copied language                           0 out of 8                     2 out of 4   0 out of 6

         Overdocumentation                         1 out of 8                     1 out of 4   0 out of 6



         Electronic signatures                     6 out of 8                     3 out of 4   0 out of 6



         Other EHR-related
                                                   2 out of 8                     1 out of 4   0 out of 6
         guidance


         Source: OIG analysis of contractors’ responses to questionnaire, 2013.




                    18
                       CMS Manual System, Pub. No. 100-08, Medicare Program Integrity, Transmittal 442.
                    December 7, 2012.

CMS and Its Contractors Have Adopted Few Practices To Address Vulnerabilities in EHRs (OEI-01-11-00571)     8
                   CONCLUSION AND RECOMMENDATIONS
                   The Department of Health and Human Services has spent considerable
                   resources to promote widespread adoption of EHRs, including developing
                   certification criteria and defining meaningful use for EHR technology
                   while paying over $22.5 billion in incentive payments. It has directed less
                   attention to addressing potential fraud and abuse vulnerabilities in EHRs
                   despite the challenges they pose to the integrity of medical records.
                   Our findings show that CMS and its contractors have not changed their
                   program integrity strategies in light of EHR adoption. Some CMS
                   contractors reported that they were unable to identify copied language and
                   overdocumentation in a medical record. This is a particular concern with
                   EHRs because such documentation practices are made easier in an
                   electronic environment. In addition, few CMS contractors have adopted
                   additional review procedures for EHRs. Finally, CMS has offered limited
                   guidance to CMS contractors on fraud vulnerabilities.
                   We recommend that CMS:
                   Provide guidance to its contractors on detecting fraud
                   associated with EHRs
                   Although CMS has communicated to contractors through manuals that
                   “medical record keeping within an EHR deserves special considerations”
                   and that “the original content, the modified content, and the date and
                   authorship” must be identifiable, it has provided contractors with limited
                   guidance regarding the review of EHR-based claims. CMS could work
                   with contractors to identify best practices and develop guidance and tools
                   for detecting fraud associated with EHRs. Specific guidance should
                   address EHR documentation and electronic signatures in EHRs.
                   Direct its contractors to use providers’ audit logs
                   Audit log data are unique to EHRs and distinguish EHRs from paper
                   medical records. Audit logs could be a source of information for CMS’s
                   contractors when reviewing medical records. Audit log data could be
                   valuable in authenticating the medical record that supports a claim.




CMS and Its Contractors Have Adopted Few Practices To Address Vulnerabilities in EHRs (OEI-01-11-00571)   9
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with our first recommendation and partially concurred
                   with our second recommendation.
                   To address our recommendation that CMS provide guidance to its
                   contractors on detecting fraud associated with EHRs, CMS stated that
                   intends to develop guidance on the appropriate use of the copy-paste
                   feature in EHRs. It also stated that it will work with its contractors to
                   identify best practices for detecting fraud associated with EHRs. Our
                   recommendation referenced guidance specific to EHR documentation and
                   electronic signatures in EHRs. We ask CMS to address guidance on these
                   issues in its final management decision.
                   In response to our second recommendation, that CMS direct its contractors
                   to use audit logs, CMS acknowledged that audit logs can be one of several
                   tools to ensure the accuracy and validity of information in EHRs. It also
                   stated that the use of audit logs may not be appropriate in every
                   circumstance and that review of audit logs requires special training. CMS
                   stated that it is working with its contractors, EHR experts, and ONC-
                   sponsored workgroups to consider issues presented by digital clinical data,
                   including determining the authenticity of information in EHRs. We agree
                   that audit logs should be part of a comprehensive approach to reviewing
                   authenticity of EHRs and understand the challenges that CMS and its
                   contractors face to use audit logs. We reiterate our recommendation that
                   CMS make audit logs part of its contractors’ reviews of EHRs.
                   For a full text of CMS’s comments, see Appendix A.




CMS and Its Contractors Have Adopted Few Practices To Address Vulnerabilities in EHRs (OEI-01-11-00571)   10
                   APPENDIX A
                   Agency Comments



          ("''"~ 	      DEPARTMENT OF HEALTH & HUMAN SERVICES                                        Centers lor Modicare & Mcdtcald Sarvices

          \.:S\f-                                                                                    Administrator
                                                                                                     Washington, DC 20201




                       DATE:            NOV ZZ 2013

                       TO: 	          Daniel R. Levinson 

                                      Inspector General 


                       FROM: 	        Marilyn Tavenner 

                                                           /S/
                                      Administrator 


                       SUBJI':Cf: 	 Office of Inspector General (OIU) Draft Report: "C'MS and Its Contractors !·lave
                                    Adopted Few Program Integrity Practices to Address Vulnerabilities in EHRs''
                                    tOEI-01-11-00571)


                       The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                       comment on the above-referenced OTG draft report. The purpose of this report is to describe
                       how CMS and its comractors implemented program integrity practices in light of electronic
                       health records (EHRs) adoption.

                       The CMS is committed to preventing fraud, waste, and abuse in EHRs. CMS has issued
                       guidance to its contractors that states that "medical record keeping wi thin an EHR deserves
                       special considerations" and that "the original content, the modified content, and the date and
                       authorship" must be identifiable (hJI~ : I/www.cm s. gov/reg ul atigns-and
                       guidancc/_g.uidancc/t ransl:!!i!.!als/dJl~lll9.!!Q§Lr442pi.pdf.). However. CMS realizes that additional
                       guidance is needed and intends to work with its contractors in the development of effective
                       guidance and tools in an efTon to detect fraud vulnerabilities in the area of EHRs.

                       Our response to each of the OlG recommendations follows.

                       OIG Recommendation:

                       CMS should provide guidance to its contractors on detecting fraud associated with EHRs.

                       CMS Response;

                       The CMS concurs with this recommendation. CMS has been actively considering the issue of
                       preventing fraud , waste. and abuse in Ef!Rs . In May 2013. CMS and ONC held a public
                       listening session with stakeholders about a number of issues pertaining to billing and coding for
                       EHRs, including the impact of EHRs on clinical documentation. Given its potential for use in
                       fraud. CMS intends to develop appropriate guidelines to ensure appropriate use of the copy pa~te
                       feature in EHRs. CMS will also consider v.ilether additional guidance and tools are needed to




CMS and Its Contractors Have Adopted Few Practices To Address Vulnerabilities in EHRs (OEI-01-11 -00571)                            11
CMS and Its Contractors Have Adopted Few Practices To Address Vulnerabilities in EHRs (OEI-01-11-00571)   12
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Joyce Greenleaf, Regional
                   Inspector General for Evaluation and Inspections in the Boston regional
                   office; Kenneth Price, Deputy Regional Inspector General; and Russell
                   Hereford, Deputy Regional Inspector General.
                   Danielle Fletcher served as the team leader for this study. Other Office of
                   Evaluation and Inspections staff from the Boston regional office who
                   conducted the study include Kimberly Yates. Central office staff who
                   provided support include Kevin Manley and Clarence Arnold.




CMS and Its Contractors Have Adopted Few Practices To Address Vulnerabilities in EHRs (OEI-01-11-00571)   13
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
